August 25, 2008

DAVID M. PATTERSON
MANAGER, OPERATIONS SUPPORT, SOUTHEAST AREA

SUBJECT: Audit Report – Contract Oversight of Highway Transportation Contracts in
         the Southeast Area (Report Number CA-AR-08-009)

This report presents the results of our audit of the Postal Service’s contract oversight of
highway transportation contracts in the Southeast Area (Project Numbers
07YG071CA000 and 07YG071CA001). Our objective was to determine whether
Southeast Area Postal Service officials effectively monitor highway contract
performance to control costs. Specifically, we determined whether officials were
properly monitoring and documenting contractor performance, and effectively
monitoring and controlling costs of canceled and extra highway transportation trips.
Click here to go to Appendix A for additional information about this audit.

Conclusion

Southeast Area Postal Service officials could improve the monitoring of highway
contract performance to control costs. Specifically, officials did not always properly
monitor and document contractor performance. Officials could also improve monitoring
and controlling costs of canceled segments of highway transportation trips and extra
highway transportation trips.

We calculated $9,531,0821 of unsupported questioned costs due to officials not properly
authorizing extra trip costs. Click here to go to Appendix B for a detailed analysis of
these issues.

Documenting Late Trips

Southeast Area Postal Service officials were not always properly documenting and
monitoring contractor performance. Officials did not consistently issue a PS Form 5500,
Contract Irregularity Report,2 for trips over 30 minutes late. A combination of
inadequate and inconsistent training and route logistics affected the administrative
officials’ (AOs) ability to oversee contractor performance. As a result, the Postal


1
  Unsupported questioned costs of $9.5 million xxx xxx xxx xx xxx xxxxx xxxxxxxx xx xxx xxxxx xx xxxxxx xxxxxxx
xxxx xxxxx xxxx, xxxxxxxx xxxxx xxxxx xxxx xxxxxxxxxxxxxx, xxxxx xxxx xxx xxxxxxxx xxxxxx xx x xxxxxx xxxxxxx
xxxxxxxxxx xxx x xxxxxx xxxxxxxx xx xxxxxxxxxxxxx. We question these costs because of missing or incomplete
documentation, or because required procedures were not followed. These costs are included in the questioned cost
total, but are also identified separately.
2
  An employee of the facility where an irregularity occurred should complete PS Form 5500, to document the
contractor’s late performance.
Contract Oversight of Highway Transportation                                           CA-AR-08-009
 Contracts in the Southeast Area


Service could be paying for mail shipments that arrive late for processing, which may
affect Postal Service operations.

We recommend the Manager, Operations Support, Southeast Area, instruct the
Manager, Southeast Area Distribution Networks, to:

    1. Provide training on monitoring contract performance to administrative officials.

    2. Reiterate to employees the requirement to issue Postal Service Form 5500,
       Contract Irregularities Report, and the circumstances in which it must be issued.

Management’s Comments

Management agreed with our finding and recommendations and has scheduled four
comprehensive AO training sessions to be completed by September 4, 2008.
Management stated the training sessions will cover many of the items found during this
audit, such as reiterating to employees the requirement to issue PS Form 5500, and the
findings from our previous report, Renewal Process for Highway Transportation
Contracts in the Southeast Area (Report Number CA-AR-08-008, issued July 17, 2008).
Management’s comments, in their entirety, are included in Appendix D.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and the corrective actions should
resolve the issue identified in the report.

Canceled Trips

Southeast Area Postal Service officials could improve monitoring and controlling costs
of canceled highway transportation trips. Postal Service employees stated they were
not requiring drivers to make all scheduled stops according to the contract because
there was no mail volume for contractors to pick up. They classified these trips only as
“bypassed” in the Transportation Information Management Evaluation System (TIMES-
Web), rather than providing a full explanation as to why the trip was bypassed.3 As a
result, AOs were unable to consistently review requirements to determine whether
management should make changes to the contract because of lack of mail volume.
Management could make contract route adjustments if they monitored bypassed trip
frequency. Furthermore, incorrect information in the TIMES-Web hinders
management’s ability to determine if costs could be reduced by adjusting route
schedules or continuing trips.




3
  TIMES-Web allows employees to collect data about the arrival and departure of mail trucks and to communicate
that information to other Postal Service processing facilities.


                                                        2
Contract Oversight of Highway Transportation                                              CA-AR-08-009
 Contracts in the Southeast Area



We recommend the Manager, Operations Support, Southeast Area, instruct the
Manager, Southeast Area Distribution Networks, to:

    3. Reiterate to employees that they should adhere to highway contract route
       schedules as outlined in the contract (not allow drivers to bypass stops) and to
       document canceled trips with adequate information to determine the cause of
       cancellation.

    4. Direct administrative officials to conduct surveys for routes with frequent
       bypassed trips to determine if management can eliminate stops from a trip or
       change its frequency.

Management’s Comments

Management agreed with our finding and recommendations and stated that adherence
to highway contract schedules, and documenting canceled trips with adequate
information to determine the cause, will be included the training package scheduled to
be completed by September 4, 2008.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations, and
the corrective actions should resolve the issues identified in the report.

Monitoring Extra Trips

Postal Service officials could improve monitoring and controlling costs of extra highway
transportation trips. Officials paid approximately $1.7 million for over 10,000 extra trips
that were documented but not properly authorized on PS Forms 5397.4 This occurred
because it was common practice for craft employees (such as expeditors, clerks, group
leaders and mail handlers)5 to sign PS Forms 5397 authorizing the extra trips. Postal
Service policy requires a supervisor to authorize extra trips.

In addition, Network Transportation Specialists both prepared and certified PS Forms
5429, Certification of Exceptional Contract Service Performed,6 and submitted them for
payment. This occurred because it is a common practice for the plant management to
delegate this duty to a staff member. To ensure there is no conflict of interest or
duplication of expenses, separate Postal Service officials should perform the
preparation and certification processes.



4
  A PS Form 5397 is issued to the contractor to request extra highway transportation services.
5
  These are nonsupervisory employees who record the arrival and departure of mail trucks.
6
  A PS Form 5429, is used to certify that the contractor performed the requested extra service and should receive an
additional payment.


                                                          3
Contract Oversight of Highway Transportation                                                CA-AR-08-009
 Contracts in the Southeast Area


During our briefings with plant management on the results of our audit, a majority of
managers stated they have begun to implement corrective actions to reiterate the
importance of obtaining a supervisor’s signature on PS Forms 5397 and separation of
duties in preparing and certifying PS Forms 5429. In addition, the Manager, Southeast
Area Distribution Networks, issued a memorandum to plant managers to provide
refresher training on form completion and proper authorization of extra trips. Because
officials did not follow the required authorization procedure, the Postal Service incurred
$9,531,0827 of unsupported questioned costs. Click here to go to Appendix C for
additional information.

We recommend the Manager, Operations Support, Southeast Area, instruct the
Southeast Area District Managers to direct plant managers to:

    5. Reiterate to Postal Service supervisors they must sign Postal Service Forms
       5397, Contract Route Extra Trip Authorization, and prepare and review
       management reports to track the progress of extra trip costs.

    6. Implement appropriate separation of duties by ensuring the appropriate manager
       certifies Postal Service Forms 5429, Certification of Exceptional Service
       Performed.

Management’s Comments

Management agreed with the finding and our recommendations and issued a letter
dated June 16, 2008, directing plant managers to ensure that dock personnel and all
EAS personnel receive appropriate refresher training on the completion of PS Form
5397.

Management did not agree with the amount of unsupported questioned costs.
Management recognized and agreed that the authorization block on Postal Service
Form 5397 reads Title and Name of Postal Supervisor. However, they stated the lack of
authorization does not indicate that the extra trips were not needed. In addition, they
stated that the audit report did not give any data indicating whether scheduled trips
before or after the extra trips were examined for utilization of the vehicle.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations, and
the corrective actions should resolve the issues identified in the report.

With regard to management’s disagreement with our unsupported questioned costs, we
questioned these costs because Postal Service employees did not follow the required
authorization procedures. The expeditor, who is responsible for identifying the need for

7
  We projected our audit results of $1.7 million to a sample universe of $13.1 million. The point estimate of the value
of the sample universe is $9,531,082 million, at a 95 percent confidence level, with a precision of 14.64 percent; this
value is in the interval of $8.1 million to $10.7 million.


                                                           4
Contract Oversight of Highway Transportation                          CA-AR-08-009
 Contracts in the Southeast Area


extra trips, is not a Postal Service supervisor and is not authorized to sign PS Forms
5397; therefore, when he signs the form, this, by definition, creates an unauthorized
commitment. In addition, the expeditor’s authorization of the trip is a separation-of-
duties issue, which creates a risk of unnecessary costs for the Postal Service.

We attempted to retrieve a sample of trip transactions from TIMES; however, there were
concerns with data inaccuracy for the trips in question. In addition, PS Forms 5397
were not completed with appropriate data to confirm trip occurrence and utilization.
Some of these trips may have been proper, but we cannot determine their propriety
using the information available; consequently, it would appear that management, as
well, cannot determine their propriety. An unsupported questioned cost is defined as a
cost incurred as a result of a technical failure to comply with Postal Service policies and
procedures, which includes these transactions.

The OIG considers management’s comments responsive to the recommendations in the
report. The OIG considers recommendations 5 and 6 significant. Based on
management’s corrective actions, we will close these recommendations in the follow-up
tracking system. We will report $9,531,082 in unsupported questioned costs in our
Semiannual Report to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judy Leonhardt, Director,
Supply Management, or me at (703) 248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Anthony Pajunas
    Terry Wilson
    Susan Brownell
    Dwight Young
    Karen Pompanella
    David McClelland
    Susan Witt
    Delores Gentry
    Katherine S. Banks




                                               5
Contract Oversight of Highway Transportation                                                 CA-AR-08-009
 Contracts in the Southeast Area



                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Highway contract routes (HCRs)8 provide for the transportation of mail between post
offices or other designated points where mail is received or dispatched. Highway
transportation contracts for HCRs provide service between Postal Service facilities,
mailers’ plants, and similar facilities.

The contracting officers (COs) at the nine area Distribution Network Offices (DNOs)9
and two DNO branch offices are responsible for monitoring performance to ensure
that these contractors provide all the services and equipment required under the terms
of the agreements. To monitor supplier performances, the CO appoints an AO to
record contract performance on a day-to-day basis. The AO is generally the
postmaster or manager of the facility where the HCR originates.

At Postal Service facilities, dock personnel document any unsatisfactory service or
irregularities (such as late or missed trips and vehicle issues) with a PS Form 5500.
Dock personnel forward the form to the AO responsible for the HCR. For repeat
occurrences, the AO initiates the corrective actions and elevates instances that cannot
be resolved to the CO. By properly tracking supplier performance and maintaining
accurate and complete documentation, the CO can, if needed, justly terminate the
contract of a poor performing supplier.

Canceled trips occur when the Postal Service cancels or annuls a trip for various
reasons. In general, 50 percent of a trip’s rate may be deducted from the supplier’s
compensation for canceled trips. However, this percentage rate may be negotiated,
by contract, at a different amount. An extra trip is an additional trip of service operated
on an infrequent basis over the same route or as normally provided under the terms of
the contract. No office may request or schedule extra HCR trips unless it is necessary
to prevent serious delay of “preferential mail” or justified because of mail volume.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether Southeast Area Postal Service officials
effectively monitor highway contract performance to control costs. Specifically, we
determined if officials were (1) properly monitoring and documenting contractor
performance and (2) effectively monitoring and controlling costs of canceled and extra
highway transportation trips.

To accomplish our audit objective, we statistically sampled canceled trips with “bypass”
as the reason for the cancellation during FY 2007 and exceptional service payments
made on highway transportation contracts from May 1, 2006, to September 30, 2007,

8
    HCRs also include box delivery, collection service, and other mail services. We did not include these in our review.
9
    Each DNO coordinates Postal Service transportation operations within a geographic area.


                                                             6
Contract Oversight of Highway Transportation                                        CA-AR-08-009
 Contracts in the Southeast Area


within the Southeast Area. We judgmentally sampled late trips for the Tennessee
District HCRs where the number of late trips (over 30 minutes late) were greater than
100 per facility during fiscal year (FY) 2007. We interviewed officials and/or reviewed
contract files at facilities in Alabama, Florida, and Tennessee. In addition, we
interviewed the CO and AOs assigned to the contracts in our sample.

We conducted this performance audit from February through August 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.

We obtained computer-generated data directly from Postal Service systems.10 To
support our reliance on the data, we performed a limited review of data integrity by
reconciling contract records reviewed to our samples. We discussed our observations
and conclusions with management officials on July 7, 2008, and included their
comments where appropriate.




10
  The Postal Service systems were the TIMES-Web, Accounts Payable, and Transportation Contract Support
System.


                                                      7
 Contract Oversight of Highway Transportation                                 CA-AR-08-009
  Contracts in the Southeast Area


 PRIOR AUDIT COVERAGE

 We identified three OIG reports issued within the past 5 years related to this subject.

                                     Final
                     Report         Report      Monetary
 Report Title       Number            Date       Impact                  Report Results
Highway           TD-AR-03-014     9/26/2003    $11.3      •   The Postal Service could cancel
Network                                         million        101 unnecessary trips over a 1- to
Scheduling –                                                   3-year period. Management could
Southeast                                                      terminate the trips if mail volume is low
Area                                                           and consolidate mail on other trips
                                                               without negatively affecting service.
                                                           •   Management concurred with the intent
                                                               of the findings and recommendations.

Surface           NL-AR-05-005     3/18/2005    $6.6       •   The Postal Service could cancel, not
Transportation                                  million        renew, or modify 52 trips over the term
– Bulk Mail                                                    of existing Southeast Area highway
Center                                                         transportation contracts. Management
Highway                                                        could eliminate or modified trips without
Transportation                                                 negatively affecting service. The audit
Routes –                                                       disclosed that mail volume was low and
Southeast                                                      mail could be consolidated on other
Area                                                           trips.
                                                           •   Management agreed with the findings
                                                               and recommendations.

Renewal           CA-AR-08-        6/16/2008    $935,000   •   The Postal Service AOs did not
Process for       DRAFT                                        consistently assess contract
Highway                                                        requirements and performance.
Transportation
Contracts in
the Southeast
Area




                                                   8
Contract Oversight of Highway Transportation                           CA-AR-08-009
 Contracts in the Southeast Area


                            APPENDIX B: DETAILED ANALYSIS

Documenting Late Trips

Postal Service officials were not always properly documenting and monitoring contract
performance. There were 164,476 occurrences of late trips (over 30 minutes late) in the
Southeast Area during FY 2007. Officials at the five facilities that we visited in the
Tennessee District did not issue a PS Form 5500 for 183 of 220 applicable trips.
Officials at two facilities stated they were monitoring contractor performance on a
monthly basis with an efficiency report. However, the efficiency report is based on
inputting PS Forms 5500 into TIMES-Web. Therefore, if officials are not consistently
recording PS Forms 5500, the efficiency reports cannot properly serve as an effective
management tool.

A combination of inadequate and inconsistent training and route logistics affected the
AOs’ ability to oversee contractor performance. Some AOs did not receive formal
training and the majority of the AOs interviewed learned on-the-job. In addition, the AO
responsible for the contract route does not monitor whether a PS Form 5500 is
completed when the irregularity occurs at a facility different from the one where the AO
works.

Postal Service officials cannot properly monitor and address unsatisfactory contractor
behavior without having all the necessary information. As a result, the Postal Service
could be paying for mail shipments that arrive late for processing, which may affect
Postal Service operations.

Canceled Trips

Postal Service officials could improve monitoring and controlling costs of canceled
highway transportation trips. Postal Service employees were not requiring drivers to
make all scheduled stops according to the contract. They classified these trips as
bypassed in TIMES-Web. Of the 300 canceled trips reviewed:

   •   Forty-six occurred when the driver was allowed to bypass the facility.
   •   AOs could not offer an explanation other than “bypass” for why trucks did not
       stop when inputting the information for 144 trips in TIMES-Web.
   •   Employees used the canceled trip function in TIMES-Web to close out 38 trips
       that were not properly scanned.
   •   The remaining 72 trips were justifiable canceled trips for contract route
       adjustments.

According to 11 AOs, of the 46 trips where drivers were allowed to bypass the facilities,
43 occurred because there was no mail volume for the contractors to pick up. In
several of the 43 instances, the contract driver called the facility to see if there was mail
to be picked up. If there was no mail or mail transport equipment to be picked up, the
driver was allowed to bypass the facility and head to the next scheduled stop. However,


                                               9
Contract Oversight of Highway Transportation                                                CA-AR-08-009
 Contracts in the Southeast Area


the AOs are not reviewing bypassed trips to determine whether to make changes to the
contract. Management could make contract route adjustments if it monitored bypassed
trip frequency.

Employees could not explain why they classified 144 trips as bypass because they did
not maintain proper supporting documentation. Thus, the TIMES-Web information is
not completely accurate and detailed and would not enable management to determine if
costs could be reduced by adjusting route schedules or continuing trips. In addition,
employees incorrectly used the canceled trip function in TIMES-Web to close out 38
trips that were not properly scanned and, according to several AOs, personnel
constraints and the large volume of trucks that come to a facility hampered employees’
availability to scan every truck. Typically if this occurs, the expeditor would cancel the
trip in TIMES-Web so that it does not show as an unrecorded trip.

Monitoring Extra Trips
Postal Service officials could improve monitoring and controlling costs of extra highway
transportation trips. Officials paid approximately $1.7 million for over 10,000 extra trips
that were documented on PS Forms 5397 but not properly authorized. Craft employees
(such as expeditors, clerks, group leaders, and mail handlers) signed 8,082 of these
forms. An additional 2,095 forms were illegible, not signed (left blank), pre-printed and
not signed, labeled “No Supervisor,” or labeled “Networks” with no signature.

This occurred because it was a common practice for expeditors and other dock
personnel to sign the PS Form 5397. However, the form requires the title and signature
of a Postal Service supervisor. In addition, the Southeast Area Transportation
Information Manual, Section 10 (dated 1999) indicates the PS Form 5397 will be
completed and signed by the responsible official. Some AOs stated there were few
supervisors or managers on duty at the time of the trip, they had verbal management
approval, or they did not want dock personnel to delay the trips to obtain a supervisor’s
signature.

The Postal Service may be incurring costs for trips that are unnecessary because these
trips were not properly authorized. Due to employees not following required procedures
for obtaining a supervisor’s signature authorizing for extra trip costs, the Postal Service
incurred $9,531,08211 of unsupported costs. In addition, management does not have
information readily available to determine whether AOs should modify contracts based
on extra trip usage and contract performance. Reviewing the performance report and
preparing the expense variance analysis regularly would enable management to detect
anomalies and trends.

In addition, the network transportation specialist prepared and certified 513 of the
607 PS Forms 5429 reviewed (84 percent) and submitted them for payment. This


11
   We projected our audit results of $1.7 million to a sample universe of $13.1 million. The point estimate of the value
of the sample universe is $9,531,082, at a 95 percent confidence level, with a precision of 14.64 percent; this value is
in the interval of $8.1 million to $10.7 million.


                                                          10
Contract Oversight of Highway Transportation                         CA-AR-08-009
 Contracts in the Southeast Area


occurred because it is a common practice throughout the Southeast Area for plant
and/or Transportation management to delegate this duty to a staff member.

To ensure there is no conflict of interest or duplication of expenses, different Postal
Service officials should prepare and certify these documents (a separation of duties).
Without an adequate separate of duties, the risk of fraud and errors is increased.




                                               11
Contract Oversight of Highway Transportation                                           CA-AR-08-009
 Contracts in the Southeast Area


         APPENDIX C: CALCULATION OF UNSUPPORTED QUESTIONED COSTS

We performed a two-tiered random sample of 10 Postal Service facilities (607 PS
Forms 5429) from a universe of 24 facilities, valued at $13.1 million. Each PS Form
5429 was supported with PS Forms 5397. Postal Service officials paid approximately
$1.7 million out of $2.6 million (or 65 percent) for over 10,000 PS Forms 5397 not
properly authorized by a Postal Service supervisor.

The point estimate of the value of the noncompliant forms for the $13.1 million sample
universe is $9,531,082, at a 95 percent confidence level. We classify the $9,531,082 as
unsupported questioned costs, due to employees not following the required procedure
for a supervisor to sign the authorization forms for extra trip costs,

                                 First Sampling Stage by Facility
                                                Included in First                    Included in
                                                  Stage Sample                        Universe
                 Number of Facilities                  10                                 24
                 Value of Extra Trip Payments      $5,796,757                        $13,117,391


                          Second Sampling Stage by PS Forms 5429
                                              Included in     Included in
                                             Second Stage      Universe
                                                Sample
                Number of PS Forms 5429           60712          1, 803
                Value of Extra Trip Payments   $2,608,719     $5,796,757




12
     Three of the 10 facilities selected had generated less than 70 PS Form 5429s.


                                                           12
Contract Oversight of Highway Transportation           CA-AR-08-009
 Contracts in the Southeast Area


                       APPENDIX D: MANAGEMENT’S COMMENTS




                                               13
Contract Oversight of Highway Transportation        CA-AR-08-009
 Contracts in the Southeast Area




                                               14
Contract Oversight of Highway Transportation        CA-AR-08-009
 Contracts in the Southeast Area




                                               15
Contract Oversight of Highway Transportation        CA-AR-08-009
 Contracts in the Southeast Area




                                               16
Contract Oversight of Highway Transportation        CA-AR-08-009
 Contracts in the Southeast Area




                                               17
Contract Oversight of Highway Transportation        CA-AR-08-009
 Contracts in the Southeast Area




                                               18
Contract Oversight of Highway Transportation        CA-AR-08-009
 Contracts in the Southeast Area




                                               19
Contract Oversight of Highway Transportation        CA-AR-08-009
 Contracts in the Southeast Area




                                               20
Contract Oversight of Highway Transportation        CA-AR-08-009
 Contracts in the Southeast Area




                                               21
Contract Oversight of Highway Transportation        CA-AR-08-009
 Contracts in the Southeast Area




                                               22
